No. 20-1034

IN THE

Supreme Court of the United States
>>>>
NARKIS ALIZA GOLAN,
Petitioner,
v.

ISACCO JACKY SAADA,
Respondent.
On Petition for a Writ of Certiorari to
the United States Court of Appeals
for the Second Circuit

AFFIRMATION IN OPPOSITION TO
PETITION FOR A WRIT OF CERTIORARI

February 26, 2021

RICHARD MIN
Counsel of Record
BURGER GREEN & MIN LLP
Attorneys for Respondent
420 Lexington Avenue
Suite 2834
New York, New York 10170
212-681-6400
rmin@bgmlaw-nyc.com

i
QUESTION PRESENTED
Whether a District Court, after a finding of grave
risk, or as part of a grave risk analysis, is required
to examine “the range of remedies” that, in its discretion, would permit the return of children to
their habitual residence with sufficient “protection
from harm” so that custody proceedings can commence in the country of habitual residence.

ii
TABLE OF CONTENTS
Page

QUESTION PRESENTED ............................

i

TABLE OF AUTHORITIES ..........................

iv

STATEMENT OF THE CASE.......................

1

A. Overview of Hague Abduction
Convention.........................................

2

B. Factual Background ..........................

3

C. Proceedings Below .............................

4

1.

March 22, 2019 District Court
Decision.......................................

4

July 19, 2019 Second Circuit
Decision.......................................

6

May 5, 2020 District Court
Decision After Remand ...............

7

October 28, 2020 Second Circuit
Decision.......................................

9

January 14, 2021 Second Circuit
Order ...........................................

10

REASONS FOR DENYING
THE PETITION .......................................

11

2.
3.
4.
5.

iii
Page

I.

Any Circuit Split Does Not Ultimately
Impact a District Court’s Discretion to
Issue Ameliorative Measures ............

11

II. Ameliorative Measures Are A
Crucial Component to a Grave
Risk Analysis .....................................

15

III. Sister Signatories Mandate
Consideration of Ameliorative
Measures ...........................................

24

CONCLUSION ..............................................

28

iv
TABLE OF AUTHORITIES
Page(s)

Cases
Abbott v. Abbott,
560 U.S. 1, 130 S.Ct. 1983,
176 L.Ed.2d 789 (2010) ............................

3, 12

Acosta v. Acosta,
725 F.3d 868 (8th Cir. 2013) ....................

11

Blondin v. Dubois (Blondin IV),
238 F.3d 153 (2d. Cir. 2001) ....................

16

Blondin v. Dubois,
189 F.3d 240 (2d Cir. 1999) .....................passim
Danaipour v. McLarey,
286 F.3d 1 (1st Cir. 2002) ........................passim
Friedrich v. Friedrich (Friedrich II),
78 F.3d 1060 (6th Cir. 1996) ....................

12

Lozano v. Montoya Alvarez,
572 U.S. 1, 134 S. Ct. 1224,
188 L. Ed. 2d 200 (2014)..........................passim
Monasky v. Taglieri,
140 S. Ct. 719 (2020) ...............................passim
Van De Sande v. Van De Sande,
431 F.3d 567 (7th Cir. 2005) ....................

15

Statutes
22 U.S.C. §§ 9001-9011 .................................

2

22 U.S.C. § 9001(a)(1) ...................................

2

v
Page(s)

U.S. Const., art. VI .......................................

16

Regulations
U.S. State Department Text &
Legal Analysis,
51 Fed. Reg. 10,494, 10,509
(Mar. 26, 1986) .........................................

12

Other Authorities
1980 Child Abduction Convention Guide to
Good Practice Part VI, Article 13(1)(b)
issued by the Hague Conference on
Private International Law in 2020
(“Guide to Good Practice”) .......................

20

Convention, art. 1 .........................................

3

Convention, art. 12 .......................................

11

Convention, art. 13(b) ...................................passim
Convention, art. 18 ....................................... 11, 14
Elisa Perez-Vera,
Explanatory Report: Hague Conference
on Private International Law in 3 Acts
and Documents of the Fourteenth Session
(“Explanatory Report”), 34 at 22-23. .......

23

vi
Page(s)

European Commission,
“Practice Guide for the Application of
the Brussels IIa Regulation”, at 54
(“EC Practice Guide”), available at
https://op.europa.eu/en/publicationdetail/-/publication/f7d39509-3f104ae2-b993-53ac6b9f93ed ..........................

27

Federal Judicial Center, J. Garbolino,
The Use of Undertakings in Cases Arising
Under the 1980 Hague Convention on
the Civil Aspects of International Child
Abduction (2016), p. 10. ...........................

19

Hague Convention on the Civil Aspects of
International Child Abduction,
Oct. 25, 1980, T.I.A.S. No. 11,670,
1343 U.N.T.S. 89 ...................................... 2, 14
Kathleen Ruckman,
U.S. Department of State,
Undertakings as Convention Practice:
The U.S. Perspective (2005).....................

24

Letter from Catherine W. Brown,
Assistant Legal Adviser for
Consular Affairs, United States Dep’t
of State, to Michael Nicholls,
Lord Chancellor’s Dep’t,
Child Abduction Unit, United Kingdom
(Aug. 10, 1995) ......................................... 17, 18

vii
Page(s)

Report On Hague Convention Operations
by the Lord Chancellor’s Child
Abduction Unit, Central Authority
for England & Wales, November 1995
(note 4) .....................................................

18

Foreign Cases
In Re E. (Children) (Abduction:
Custody Appeal) [2011] UKSC 27,
the United Kingdom Supreme Court .......

24

STATEMENT OF THE CASE
The question presented by Petitioner does not
warrant this Court’s review and this case is not the
appropriate vehicle for the point at issue. It is not
the appropriate vehicle because the District Court
already exercised its discretion in determining
that, despite the grave risk finding, ameliorative
protective measures would make possible the safe
return of the child to his country of habitual residence, Italy. Therefore, this Court’s resolution of
the question presented will not affect the ultimate
outcome of this case. Even if the District Court
were not mandated to consider ameliorative protective measures, it is clear the District Court still has
the discretion to order ameliorative protective
measures in any event. In this present case, the
District Court believed ameliorative protective
measures to be appropriate or otherwise, it would
not have taken the arduous steps to craft specific
measures designed to protect the child upon his
return to Italy. The District Court simply could
have determined that ameliorative protective
measures were insufficient to protect the Child and
denied the petition for return.
The circuit split discussed by the Petitioner
amounts to a distinction without a significant difference. A district court is never mandated to
impose ameliorative measures regardless of any
mandate within their circuit to consider such measures. While some circuits require district courts,
after a finding of grave risk of harm, to consider
ameliorative measures prior to denying a petition,

2
district courts still have discretion to order ameliorative measures before granting a return order.
Similarly, courts also have discretion to reject ameliorative measures before denying a petition for
return. The consideration of ameliorative measures
is simply one tool in utilizing a court’s discretion
and any slight differences between the circuit
approaches are not sufficiently important to warrant review by this Court. Petitioner’s ultimate
goal is to restrict courts from considering ameliorative measures which will only undermine the goals
of the Hague Convention. The Petition for Writ of
Certiorari should therefore be denied.
A. Overview of Hague Abduction Convention
The purpose of the Hague Convention on the
Civil Aspects of International Child Abduction,
Oct. 25, 1980, T.I.A.S. No. 11,670, 1343 U.N.T.S.
89, is “to protect children internationally from the
harmful effects of their wrongful removal or retention and to establish procedures to ensure their
prompt return to the State of their habitual residence.” In the enabling statute for the Hague
Convention—the International Child Abduction
Remedies Act, Congress expressly declared in
§ 9001(a)(1) that “[t]he international abduction or
wrongful retention of children is harmful to their
well-being.” See Pub. L. No. 100-300, 102 Stat. 437
(1988) (codified at 22 U.S.C. §§ 9001-9011).
The Hague Convention states two primary objectives: “to secure the prompt return of children
wrongfully removed to or retained in any Contract-

3
ing State,” and “to ensure that rights of custody
and of access under the law of one Contracting
State are effectively respected in the other Contracting States.” Convention, art. 1, Abbott v.
Abbott, 560 U.S. 1, 7, 130 S.Ct. 1983, 176 L.Ed.2d
789 (2010). To those ends, the Convention’s “central operating feature” is the return of the child. Id.
at 9. This Court has affirmed that “the best interests of the child are well served when decisions
regarding custody rights are made in the country of
habitual residence.” Id. at 20. This Court recently
stated in Monasky v. Taglieri, that “[t]he Convention’s return requirement is a “provisional” remedy
that fixes the forum for custody proceedings. Upon
the child’s return, the custody adjudication will
proceed in that forum.” Monasky v. Taglieri, 140 S.
Ct. 719, 723 (2020).
B. Factual Background
Mr. Saada, an Italian citizen, was born and currently resides in Milan, Italy. Ms. Golan, an American citizen, currently resides in New York. Mr.
Saada and Ms. Golan have one child, B.A.S., who
was born in Italy and has dual Italian and American citizenship. The parties met and began a relationship in 2014. On August 25, 2014, Ms. Golan
moved to Milan, Italy to live with Mr. Saada. App.
at 43a-44a. They were engaged on February 18,
2015 and were married in Tel Aviv, Israel on
August 18, 2015. The Child was born in June 2016
while the parties lived in Milan, Italy. Id. at 44a45a.

4
The parties fought frequently during their relationship, and both engaged in incidents of domestic
violence. Id. at 43a. In the summer of 2018,
Ms. Golan and the Child left Italy to attend her
brother’s wedding in New York. Id at 47a. When
she failed to return to Italy with the Child as
scheduled, Mr. Saada initiated this proceeding on
September 19, 2018. Id. at 48a. In Italy, the parties
are engaged in an ongoing custody dispute. Id. at
17a.
C. Proceedings Below
1.

March 22, 2019 District Court Decision

The District Court granted the petition subject to
certain ameliorative measures. It found that the
grave risk of harm to B.A.S. was caused by “exposure to violence between [Mr. Saada] and [Ms.
Golan].” App. at 15a. The Court made a distinct
point of stating that B.A.S was never a target of
violence. Id.
The District Court ordered the return of B.A.S. to
Italy subject to ameliorative measures to protect
the Child. The Court sought ensure the Child’s
safety by creating separation between Mr. Saada
and Ms. Golan, as their interaction in front of the
Child had the potential to cause future harm. Id. at
81a-84a. The District Court ordered the return of
the Child to Italy subject to the following undertakings/ameliorative measures:
(1) Mr. Saada to give Ms. Golan $30,000 before
B.A.S. is returned to Italy for housing accommoda-

5
tions without restriction on location in Italy, financial support, and legal fees;
(2) Mr. Saada to stay away from Ms. Golan until
the Italian courts address this issue;
(3) Mr. Saada to pursue dismissal of criminal
charges against Ms. Golan relating to her abduction of B.A.S.;
(4) Mr. Saada to begin cognitive behavioral therapy in Italy;
(5) Mr. Saada to waive any and all rights to legal
fees or expenses under the Hague Convention and
ICARA for the prosecution of this action;
(6) Mr. Saada to provide the full record of these
proceedings, including trial transcripts, court filings, exhibits, undertakings, expert reports, and
decisions of this Court to the Italian court presiding over the custody proceeding;
(7) Mr. Saada to provide a sworn statement with
the measures he will take to assist Ms. Golan in
obtaining legal status and working papers in Italy;
(8) Mr. Saada to drop any current civil actions
against Ms. Golan in Italy based on the abduction
of B.A.S. and must not pursue any future criminal
or civil actions against her in Italy based on the
abduction.
Id.
The District Court found that, since the grave
risk of harm posed to the Child was based on exposure to possible future domestic violence between

6
the parties, that its order would “sufficiently ameliorate the risk of harm to B.A.S. upon repatriation” by separating the parties and “eliminating
the element of proximity” which will “reduce the
occasions for violence.” Id. at 82a.
2.

July 19, 2019 Second Circuit Decision

Ms. Golan appealed the District Court’s March
22, 2019 order. The Second Circuit issued a decision on July 19, 2019 (App. at 26a), finding that it
would be appropriate to return the Child subject to
ameliorative measures so long as they were
enforceable or had sufficient guarantees of performance. The case was remanded back to the District Court for that purpose. Id. at 36a. The Second
Circuit directed the District Court to:
. . . determine whether there exist alternative ameliorative measures that are either
enforceable by the District Court or, if not
directly enforceable, are supported by other
sufficient guarantees of performance.
In doing so, the District Court may consider,
among other things, whether Italian courts
will enforce key conditions such as Mr.
Saada’s promises to stay away from Ms.
Golan and to visit B.A.S. only with Ms.
Golan’s consent.
Id.

7
3.

May 5, 2020 District Court Decision
After Remand

On remand, the District Court examined enforceable measures available in in Italy. Over four
months, from August to November 2019, the District Court corresponded with an Italian Network
Judge (via the International Network of Hague
Judges) regarding the case. An Italian judge
advised that the Italian court was able to issue an
order of protection for Ms. Golan before she or the
Child return to Italy, that an order of protection
issued by the Italian court would be immediately
enforceable in Italy, and that the Italian court was
able to order various other relief taking into
account the District Court’s directives.
On November 15, 2019, the District Court issued
another order regarding ameliorative measures. It
directed that the parties to obtain an order of protection in Italy, for Mr. Saada to request courtmonitored therapy, to update the District Court on
the status of the pending Italian criminal charges,
for Ms. Golan to take steps to obtain legal status in
Italy, and for the parties to confer regarding financial support for Ms. Golan and the Child upon their
return to Italy.
On December 17, 2019, an order was issued by
the Court of Milan. ECF No. 96-1. The Italian order
provides for the following:
(1) An order of protection directing Mr. Saada to
stay away from Ms. Golan and the Child’s place of
residence, her place of work, the Child’s school, and

8
“other places habitually frequented by them,” effective immediately upon the return of Ms. Golan and
B.A.S. to Italy. Its initial duration is one year and
can be extended.
(2) Mr. Saada to submit to cognitive behavioral
therapy, parenting classes, and psychoeducational
therapy to be overseen by Italian Social Services,
with updates on his progress to be periodically provided to the Court. The Court further stated that if
Mr. Saada does not comply with the court’s or
Social Services’ directives, such action could be
held against him in the custody proceedings.
(3) Supervised parenting time for Mr. Saada.
(4) Financial support for Ms. Golan and the
Child of an unspecified amount, to be determined
when she and the Child return to Italy.
On May 5, 2020, the District Court issued its second Memorandum Decision and Order granting the
Petition and directing the return of B.A.S. to Italy.
App. at 11a. The District Court began its analysis
by finding that the “Italian courts are willing and
able to enforce the conditions necessary to protect
B.A.S.” Id. at 17a. It also recognized that both parties have “obtained legal counsel and are active litigants in an ongoing custody dispute in Italy.” Id.
Regarding the Italian order, the District Court
stated that the order of protection put in place by
the Italian court was found to be “sufficient to ameliorate the grave risk of harm resulting from
[B.A.S.’s] parents’ violent relationship.” Id. at 20a.
The District Court succinctly stated that “. . . the

9
Italian justice system is actively involved with the
parties and their disputes, including most significantly, B.A.S.’s welfare.” Id. at 17a. The District
Court was confident to return B.A.S. because “[t]he
Italian court has issued a comprehensive order
that demonstrates an understanding and respect
for this Court’s findings, and has imposed measures consistent with B.A.S.’s safe return.” Id.
The District Court also ordered Mr. Saada to give
Ms. Golan $150,000 before her return to cover her
and the Child’s expenses to “ensure [Ms. Golan’s]
interim stability pending the Italian custody proceeding.” Id. at 23a. The District Court found that
the ameliorative measures, all of which are now
enforceable, are sufficient to mitigate the grave
risk of harm to B.A.S. upon his repatriation.
4.

October 28, 2020 Second Circuit Decision

Ms. Golan appealed the May 5, 2020 return order
premised on an argument that Mr. Saada is so
unreliable that he would not obey the Italian court
orders, and it was clear error for the District Court
to find that the Italian court’s oversight is a sufficient guarantee of performance. Her argument was
previously considered and rejected by the District
Court as unsupported by the record. App. at 21a.
The District Court noted that Mr. Saada cooperated
with the 2017 Italian Social Services investigation
that was prompted by one of the Ms. Golan’s calls
to the Italian police. Id. There was also no evidence

10
that he obstructed or refused to participate with
Italian Social Services. Id.
The thrust of Ms. Golan’s argument was a character attack against Mr. Saada. However, the District Court found that Ms. Golan “exaggerated at
points in her testimony” (Id. at 43a), that she was
“evasive,” and “feigned confusion or failure of memory when confronted with evidence that she perceived to be unhelpful to her position.” Id. Despite
her allegations of spousal abuse, the District Court
believed it was “[s]ignificant that Ms. Golan did not
see Mr. Saada as a threat to B.A.S.” Id. at 80a,
n.37. Her position that Mr. Saada is an uncontrollable abuser is completely undermined by the fact
that she was not concerned at all that Mr. Saada
was a danger to the Child.
On October 28, 2020, the Second Circuit, by Summary Order, affirmed the District Court’s judgment
and found that the measures imposed by the District Court on remand were “either enforceable by
the District Court or . . . supported by other sufficient guarantees of performance.” App. at 2a. The
Second Circuit found that the District Court correctly concluded that there existed sufficiently
guaranteed ameliorative measures that would remedy the grave risk of harm to B.A.S. upon his
return to Italy. Id. at 9a.
5.

January 14, 2021 Second Circuit Order

Ms. Golan filed a petition for panel rehearing, or,
in the alternative, for rehearing en banc, which

11
was denied by the Second Circuit on January 14,
2021. App. at 86a.
REASONS FOR DENYING THE PETITION
I.

Any Circuit Split Does Not Ultimately
Impact a District Court’s Discretion to
Issue Ameliorative Measures

The Eighth Circuit, which does not mandate consideration of ameliorative measures, declared that
“[o]nce a district court concludes that returning a
child to his or her country of habitual residence
would expose the child to a grave risk of harm, it
has the discretion to refuse to do so.” Acosta v.
Acosta, 725 F.3d 868, 877 (8th Cir. 2013). The
implication of this statement is of course that a district court also has the discretion to order the
return of a child despite a finding of grave risk of
harm. See Convention, art. 18.
Article 13(b), commonly referred to as the “grave
risk of harm” exception, states in relevant part,
“the judicial or administrative authority of the
requested State is not bound to order the return
of the child if . . . there is a grave risk that his or
her return would expose the child to physical or
psychological harm . . .” Convention, art. 13(b)
(emphasis added). Pursuant to Article 12, when a
child has been wrongfully removed or retained and
a period of less than one year has elapsed from the
date of wrongful removal or retention, “the [judicial
or administrative] authority shall order the return
of the child forthwith.” Convention, art. 12 (empha-

12
sis added). Once a prima facie case has been established, courts must return children in the absence
of one of the limited exceptions but are not necessarily bound to do so.
However, even when one of the narrow exceptions can be established, courts still retain the discretion to direct the return of children. The U.S.
State Department has stated: “Importantly, a finding that one or more of the exceptions provided by
Articles 13 and 20 are applicable does not make
refusal of a return order mandatory. The courts
retain the discretion to order the child returned
even if they consider that one or more of the exceptions applies.” U.S. State Department Text & Legal
Analysis, 51 Fed. Reg. 10,494, 10,509 (Mar. 26,
1986); see also Friedrich v. Friedrich (Friedrich II),
78 F.3d 1060, 1067 (6th Cir. 1996).
In a concurring opinion to this Court’s determination in Lozana v. Montoya Alvarez, a district
court’s discretionary authority to order the return
of a child despite a finding of grave risk of harm
was highlighted to illustrate the Convention’s principle “that the best interests of the child are well
served when decisions regarding custody rights are
made in the country of habitual residence.” Lozano
v. Montoya Alvarez, 572 U.S. 1, 21, 134 S. Ct. 1224,
1238, 188 L. Ed. 2d 200 (2014) (citing Abbott v.
Abbott, 560 U.S. 1, 20, 130 S.Ct. 1983, 176 L.Ed.2d
789 (2010).
This discretion to order the return of a child was
properly exercised by the District Court in this case

13
when it considered the efficacy of very specific ameliorative measures tailored to the facts of the case.
This discretion also highlights the fundamental
flaw in Petitioner’s argument and is the reason
why this Court should not grant a writ of certiorari.
The question presented at the beginning of Petitioner’s Petition for a Writ of Certiorari asks
“Whether . . . a district court is required to consider ameliorative measures that would facilitate the
return of the child” in light of a grave risk finding.
Petitioner’s Petition for Writ of Certiorari at I.
However, by the end of the Petition, the question
presented seems to shift to “whether courts can
require ameliorative measures.” Id. at 25. The distinction between these two questions demonstrates
the lack of consideration Petitioner gives to the
broad discretion afforded to district courts to consider and either adopt or reject ameliorative measures regardless of any mandate.
To be clear, none of the Circuits have established
a blanket rule that it is inappropriate to consider
ameliorative measures within the context of an
Article 13(b) grave risk analysis. Absent a mandate
to consider ameliorative measures, district courts
are still free in their discretion to issue such measures as they deem appropriate. Petitioner has not
argued otherwise.
The ultimate issue is one of discretion. District
courts in every Circuit, and in every scenario illustrated by Petitioner, still retain discretion to con-

14
sider ameliorative measures. In the Circuits where
the consideration of ameliorative measures is mandated, district courts are also free to reject implementation of such measures. Moreover, they have
the discretion, even in the absence of ameliorative
measures, to return children to their habitual residence even when a grave risk exception has been
found pursuant to Article 18 of the Convention as
discussed above.
The same holds true in the Circuits where consideration of ameliorative measures is not mandated.
The district courts there may or may not consider
ameliorative measures based upon the circumstances of their case. District courts have discretion to determine that ameliorative measures
would be appropriate in the context of a return
order. Similarly, within these Circuits, district
courts may ultimately refuse to impose ameliorative measures and deny the return of children.
Given that underpinning, this Court’s determination of the question presented would have no
impact on this case and may not significantly affect
the outcomes of Hague cases in the various Circuits. Regardless of the outcome, district courts
would still be empowered to consider and issue
ameliorative measures as appropriate in each case.
In situations where ameliorative measures would
further the goals of the Convention and offer real
protection to children upon repatriation, then district courts can issue such measures in any of the
Circuits. In situations where ameliorative measures would not provide sufficient protection to chil-

15
dren upon repatriation then District Courts can
deny the petitions and refuse the return in any of
the Circuits.
This Court’s determination that such a mandate
should or should not exist would not substantially
alter the application of the Convention and therefore there is no reason for this Court to grant a writ
of certiorari. Even if a different outcome could be
demonstrated because of the conflicting standards,
Petitioner has not shown that these cases arise
with sufficient frequency to warrant this Court’s
attention.
Petitioner ultimately seeks to eliminate the use
of ameliorative measures in the context of grave
risk cases. This is contrary to the plain reading of
the text of the Convention as well as its the goals
and purposes. A district court’s discretion to consider and then either apply or reject ameliorative
measures is an important tool in balancing the
dual interests of securing the prompt return of children while also protecting them from harm.
II. Ameliorative Measures Are A Crucial
Component to a Grave Risk Analysis
As the Seventh Circuit has stated, undertakings
may “accommodate [both] the interest in the child’s
welfare [and] the interests of the country of the
child’s habitual residence.” Van De Sande v. Van
De Sande, 431 F.3d 567, 571-72 (7th Cir. 2005). In
Blondin II, the Second Circuit remanded the case
to the District Court with instructions to “take into

16
account any ameliorative measures (by the parents
and by the authorities of the state having jurisdiction over the question of custody) that can reduce
whatever risk might otherwise be associated with a
child’s repatriation.” Blondin v. Dubois, 189 F.3d
240, 248 (2d Cir. 1999). The Second Circuit further
stated that “[i]n the exercise of comity that is at the
heart of the Convention (an international agreement, we recall, that is an integral part of the
‘supreme Law of the Land,’ U.S. Const., art. VI), we
are required to place our trust in the court of the
home country to issue whatever orders may be necessary to safeguard children who come before it”
and “[t]he Court must examine “the range of remedies that might allow both the return of the child[ ]
to [his] home country and [his] protection from
harm, pending a custody award in due course by a
[court in the country of the child’s habitual residence] with proper jurisdiction.” Id. at 248-49
(internal citation omitted).
Thus, “[i]n cases of serious abuse, before a court
may deny repatriation on the ground that a grave
risk of harm exists under Article 13(b), it must
examine the full range of options that might
make possible the safe return of a child to the home
country.” Blondin v. Dubois (Blondin IV), 238 F.3d
153, 163 (2d. Cir. 2001) (emphasis added). On
remand, the Second Circuit directed the District
Court “to exercise its broad equitable discretion to
develop a thorough record” and “should feel free to
make any appropriate or necessary inquiries of the
government of France—especially regarding the

17
availability of ameliorative placement options in
France—and to do so, inter alia, by requesting the
aid of the United States Department of State,
which can communicate directly with that foreign
government.” Blondin, 189 F.3d at 249.
The “full range of options” includes undertakings, “mirror image” orders, “safe harbor” orders,
and any other ameliorative measures in general
that a district court might consider in determining
whether to return a child despite a grave risk finding. Notably, all grave risk cases do not involve
domestic violence, so these options are broad in
nature and can be molded to the specifications of
each case. Undertakings (promises made by one
party) may be sufficient in some contexts but not in
others if there is a concern of enforcement. However, alternatives such as “mirror image: or “safe harbor” orders do not carry the same concerns as
undertakings but may present other concerns such
as unnecessary delays in effectuating a prompt
return.
Petitioner incorrectly claims that the Second Circuit’s approach mandating consideration of ameliorative measures “is inconsistent with guidance
issued by the U.S. State Department.” Petition for
Writ of Certiorari at 18. Regarding undertakings,
the State Department “supports their limited use”
to facilitate prompt return orders so long as they
are limited in scope. Kathleen Ruckman, U.S.
Department of State, Undertakings as Convention
Practice: The U.S. Perspective (2005) (citing Letter
to Mr. Michael Nicholls from Catherine W. Brown,

18
Assistant Legal Adviser for Consular Affairs, U.S.
Department of State, August 10, 1995). Specifically, “[a]greements to assist in the return process or
to arrange temporary protective measures appropriately facilitate prompt return and are thus seen
as reasonable under the Convention.” Id. The State
Department has provided examples of undertakings that are appropriate, such as “an agreement
that the abducting parents return to the country of
habitual residence with the child; assignment of
costs for the return flight; and interim custody
until a court in the country of habitual residence
can arrive at a decision.” Danaipour v. McLarey,
286 F.3d 1, 22 (1st Cir. 2002) (citing Letter from
Catherine W. Brown, Assistant Legal Adviser for
Consular Affairs, United States Dep’t of State, to
Michael Nicholls, Lord Chancellor’s Dep’t, Child
Abduction Unit, United Kingdom (Aug. 10, 1995).
Mr. Nicholls, formerly of the Central Authority
for England and Wales suggested that a better
alternative to undertakings could be “safe harbor”
orders in the country of habitual residence. See
Report On Hague Convention Operations by the
Lord Chancellor’s Child Abduction Unit, Central
Authority for England & Wales, November 1995
(note 4). The State Department has also suggested,
“[a]s an alternative to undertakings, . . . ‘safe harbor’ orders, entered by a court in the country of
habitual residence at the behest of the left-behind
parent, prior to the entry of the return order.”
Danaipour v. McLarey, 286 F.3d 1, 22 (1st Cir.
2002) (citing Letter from Catherine W. Brown,

19
Assistant Legal Adviser for Consular Affairs, United States Dep’t of State, to Michael Nicholls, Lord
Chancellor’s Dep’t, Child Abduction Unit, United
Kingdom (Aug. 10, 1995).
“Safe harbor” orders are “orders secured from the
courts of the habitual residence that set forth the
safeguards necessary to allow the U.S. court to
make an order of return” which “[t]ypically . . . are
consented to by both parties, and counsel for one or
both of the parties arrange to issue the order in the
foreign jurisdiction.” Federal Judicial Center,
J. Garbolino, The Use of Undertakings in Cases
Arising Under the 1980 Hague Convention on the
Civil Aspects of International Child Abduction
(2016), p. 10. “When that order is in place, the U.S.
court may order the child’s return based on establishment of a ‘safe harbor’ for the child and perhaps
for one parent as well.” Id.
This mechanism for obtaining a “safe harbor”
order is precisely what was accomplished in this
instant case where the parties jointly requested
and received various orders from the Italian court
designed to protect not only the child, but the
abducting parent upon her return to Italy. This
mechanism, which is advocated for by the State
Department is also considered a vitally important
piece of any grave risk analysis by the Hague Conference on Private International Law and foreign
courts alike.
The use and efficacy of ameliorative measures
was a subject of discussion in the recently pub-

20
lished 1980 Child Abduction Convention Guide to
Good Practice Part VI, Article 13(1)(b) issued by
the Hague Conference on Private International
Law in 2020 (“Guide to Good Practice”), which is
intended “to provide guidance to judges, Central
Authorities, attorneys and other practitioners
working in the field of international family law and
who are faced with the application of Article
13(1)(b) of the 1980 Hague Abduction Convention.”
See Foreword of “Guide to Good Practice” (available
to download at https://www.hcch.net/en/publications-and-studies/details4/?pid=6740).
The Hague Conference advised that “[e]ven
where the facts asserted are of such a nature that
they could constitute a grave risk the court must
still determine whether protective measures
could address the risk and, if so, the court would
then be bound to order the return of the child.” Id.
at ¶ 61 (emphasis added). Regarding the process of
evaluating ameliorative measures, the Hague Conference mentioned that “Courts commonly assess
the availability and efficacy of protective measures
at the same time as they examine the assertions of
grave risk; alternatively, they do so only after the
existence of a grave risk and an understanding of
its nature has been established by the party objecting to return.” Id. at ¶ 45.
Petitioner’s argument here, that courts should
not be mandated to consider ameliorative measures
at all goes against the recent suggestions of the
Hague Conference and the stated goals of securing
a prompt return of children to their country of

21
habitual residence. The Hague Conference suggests that protective or ameliorative measures
should be considered as early as possible within the
proceedings:
Ideally, given that any delays could frustrate the objectives of the Convention,
potential protective measures should be
raised early in proceedings so that each
party has an adequate opportunity to
adduce relevant evidence in a timely manner in relation to the need for, and enforceability of, such measures. In some
jurisdictions, in the interests of expedition,
where the court is satisfied in a particular
case that adequate and effective measures
of protection are available or in place in the
State of habitual residence of the child to
address the asserted grave risk, the court
may order the return of the child without
having to enter into a more substantive
evaluation of the facts alleged.
Id. (emphasis added).
Rather than taking the position that undertakings or ameliorative measures should not be considered in a grave risk context, the Hague
Conference takes the position that they should be
considered as early as possible in the process, possibly avoiding a lengthy trial on grave risk of harm.
The Hague Conference Guide to Good Practice
highlights the differences between the various
ameliorative measures further demonstrating that

22
it is vital to consider the “full range of options” as
part of any grave risk of harm analysis:
Whether in the form of a court order or voluntary undertakings, the efficacy of the
measures of protection will depend on
whether and under what conditions they
may be rendered enforceable in the State of
habitual residence of the child, which will
depend on the domestic law of this State.
One option may be to give legal effect to the
protective measure by a mirror order in the
State of habitual residence—if possible and
available. But the court in the requested
State cannot make orders that would exceed
its jurisdiction or that are not required to
mitigate an established grave risk. It should
be noted that voluntary undertakings are
not easily enforceable, and therefore may
not be effective in many cases. Hence,
unless voluntary undertakings can be made
enforceable in the State of habitual residence of the child, they should be used with
caution, especially in cases where the grave
risk involves domestic violence.
Id. at ¶ 47.
If the exercise of comity is at the heart of the
treaty, then requiring courts to examine ameliorative measures in domestic violence cases is imperative to achieving the basic purpose of the
Convention—to return children to their country of
habitual residence for custody proceedings. Ms.

23
Golan’s position, that consideration of ameliorative
measures should not be mandated, would hollow
out the treaty.
The District Court in this case was an exemplar
of using the tools at hand to correctly apply the law
and further the goals of the Hague Convention. The
District Court took approximately nine months to
determine with great detail what was available
and enforceable in Italy to protect B.A.S. and then
issued orders in line with its findings.
In the primary source of interpretation for the
Convention, the Explanatory Report, Professor E.
Perez-Vera noted that “[t]he practical application
of this principle requires that the signatory States
be convinced that they belong, despite their differences, to the same legal community within which
the authorities of each State acknowledge that the
authorities of one of them—those of the child’s
habitual residence are in principle best placed to
decide upon questions of custody and access. As a
result, a systematic invocation of the said exceptions, substituting the forum chosen by the abductor for that of the child’s residence, would lead to
the collapse of the whole structure of the Convention by depriving it of the spirit of mutual confidence which is its inspiration.” Elisa Perez-Vera,
Explanatory Report: Hague Conference on Private
International Law in 3 Acts and Documents of the
Fourteenth Session (“Explanatory Report”), 34 at
22-23.

24
The Second Circuit, in Blondin II, 189 F.3d at
242, stated that the “careful and thorough fulfillment of our treaty obligations” not only protects
children abducted to the U.S. but also serves “to
protect American children abducted to other
nations whose courts, under the legal regime created by this treaty, are expected to offer reciprocal
protection.” Therefore, it is critical to provide district courts a robust set of tools to further the goals
of the Convention and effectuate safe returns if
possible.
III. Sister Signatories Mandate Consideration of Ameliorative Measures
This Court has stated that “ICARA expressly recognizes ‘the need for uniform international interpretation of the Convention’ (internal citations
omitted)” and that “[t]he understanding that the
opinions of our sister signatories to a treaty are
due ‘considerable weight,’ this Court has said, has
‘special force’ in Hague Convention cases.”
Monasky v. Taglieri, 140 S. Ct. 719, 727-28 (2020)
(citations omitted). In Lozano, this Court stated
that “[i]t is our ‘responsibility to read the treaty in
a manner ‘consistent with the shared expectations
of the contracting parties.’ ’ ” Lozano v. Montoya
Alvarez, 572 U.S. 1, 12, 134 S. Ct. 1224, 1233, 188
L. Ed. 2d 200 (2014) (citations omitted).
Several sister signatory countries also mandate
consideration of ameliorative measures as part of
an Article 13(b) grave risk of harm analysis. In Re
E. (Children) (Abduction: Custody Appeal) [2011]

25
UKSC 27, the United Kingdom Supreme Court
detailed the process by which Article 13(b) grave
risk of harm cases should be analyzed and ultimately mandated consideration of protective measures before denying return petitions for return.
The UK Supreme Court considered the full range of
options that would be available for consideration
and suggested a flexible approach.
Regarding protective measures, specifically
undertakings, the UK Supreme Court remarked
that “the courts in common law countries are too
ready to accept undertakings given to them by the
left-behind parent; yet these undertakings are not
enforceable in the courts of the requesting country. . . .” Id. at ¶ 7. The Court went on to state:
Yet the parties also understand that there
is no easy solution to such problems. The
first object of the Convention is to deter
either parent (or indeed anyone else) from
taking the law into their own hands and
pre-empting the result of any dispute
between them about the future upbringing
of their children. If an abduction does take
place, the next object is to restore the children as soon as possible to their home country, so that any dispute can be determined
there. The left-behind parent should not be
put to the trouble and expense of coming to
the requested state in order for factual disputes to be resolved there. The abducting
parent should not gain an unfair advantage
by having that dispute determined in the

26
place to which she has come. And there
almost always is a factual dispute, if not
about the primary care of the children, then
certainly about where they should live, and
in cases where domestic abuse is alleged,
about whether those allegations are wellfounded. Factual disputes of this nature are
likely to be better able to be resolved in the
country where the family had its home.
Id. at ¶ 8.
Considering the goals of the Hague Convention
in the context of a grave risk of harm analysis, the
UK Supreme Court went on to state that “the situation which the child will face on return depends
crucially on the protective measures which can be
put in place to secure that the child will not be
called upon to face an intolerable situation when
she gets home.” Id. at ¶ 35. They continued by saying:
Where allegations of domestic abuse are
made, the court should first ask whether, if
they are true, there would be a grave risk
that the child would be exposed to physical
or psychological harm or otherwise placed in
an intolerable situation. If so, the court
must then ask how the child can be protected against the risk. The appropriate
protective measures and their efficacy will
obviously vary from case to case and from
country to country. This is where arrangements for international co-operation

27
between liaison judges are so helpful. Without such protective measures, the court may
have no option but to do the best it can to
resolve the disputed issues.
Id. at ¶ 36 (emphasis added).
This mandate to consider protective or ameliorative measures is also followed in most of the European Union. The Brussels IIa Regulation, which is
in force in the vast majority of European countries,
reinforces the principle that children “shall always
be returned if she/he can be protected in the Member State of origin.” European Commission, “Practice Guide for the Application of the Brussels IIa
Regulation”, at 54 (“EC Practice Guide”), available
at https://op.europa.eu/en/publication-detail/-/publication/f7d39509-3f10-4ae2-b993-53ac6b9f93ed.
The Brussels IIa Regulation obligates a court to
order the return of a child even in cases of grave
risk of harm if “it is nevertheless established that
adequate arrangements have been made to secure
the protection of the child after the return.” Id. at
55.
The UK and EU approaches mirror that of the
Second Circuit in Blondin which was applied in
this case. These approaches balance the Convention’s goal to secure the prompt return of children
to their country of habitual residence with a concern for the wellbeing of a child in grave risk of
harm cases as well. Mandating consideration of
ameliorative measures, especially early on in the
proceedings, provides a valuable tool to district

28
courts to use in a broader Article 13(b) grave risk of
harm analysis as part of its equitable discretionary
authority.
CONCLUSION
Answering the question set forth in the petition
will not resolve any significant issue regarding the
Hague Convention. Whether or not district courts
are mandated to consider the full range of remedies
available to facilitate a safe return in grave risk
cases, they nevertheless may do so in an exercise of
their discretionary powers.
District courts should be mandated to consider
all available remedies available to return children
safely, if possible. Such a mandate does not disturb
a district court’s discretion in finding that there
are no available remedies that would sufficiently
protect a child upon his or her return. If, however,
the goal of the Hague Abduction Convention is to
secure the prompt return of children to their country of habitual residence then mechanisms should
be put in place to allow district courts to exhaust
all possibilities of return before denying petitions
and permitting parents to abduct children unilaterally.
For the foregoing reasons, this Court should deny
Petitioner’s Petition for a Writ of Certiorari.

29
Respectfully submitted,
/s/ RICHARD MIN
RICHARD MIN
Counsel of Record
BURGER GREEN & MIN LLP
Attorneys for Respondent
420 Lexington Avenue, Suite 2834
New York, New York 10170
212-681-6400
rmin@bgmlaw-nyc.com

